ame
I

C@OCKLE

Legal Briefs

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831

Fax: (402) 342-4850

2311 Douglas Street

E-Mail Address:
Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

www.cocklelegalbriefs.com

Nos. 19-922 and 19A-826

DONNIE CLEVELAND LANCE,
Petitioner,
Vv.
STATE OF GEORGIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR CERTIORARI AND IN OPPOSITION TO MOTION FOR STAY OF
EXECUTION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5267 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of January, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : B
State of Nebraska . Lu Qudraw-
My Commission Expires Nov 24, 2020 « a

Notary Public Affiant 39410

 
